The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436


September 14, 2011                                  OIG-JJ-14


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report, Sunset
Reviews: Evaluation of the Adequacy Phase, OIG-ER-11-14. In finalizing the report, we
analyzed management’s comments on the draft report and have included those comments
in their entirety, as an appendix to the final report.

This evaluation contains four recommendations for corrective action. In the next 30
days, please provide me with your management decisions describing the specific actions
that you will take to implement each recommendation.

Thank you for the courtesies extended to the evaluators during this evaluation.




Philip M. Heneghan
Inspector General
                  U.S. International Trade Commission
                                               Evaluation Report



                                    TABLE OF CONTENTS


Background ................................................................................................... 1

Results of Evaluation .................................................................................... 2

Problem Areas & Recommendations.......................................................... 2
   Problem Area 1: The Office of Investigations Did Not Have A Fully Developed and
   Documented Procedure................................................................................................... 2

   Problem Area 2: The Office of Investigations Did Not Consistently Follow Their
   Adequacy Memo Template............................................................................................. 4

Management Comments and Our Analysis ............................................... 5

Objective, Scope, and Methodology ............................................................ 5

Appendix A: Management Comments on Draft Report......................... A




OIG-ER-11-14                                                 i
                U.S. International Trade Commission
                                  Evaluation Report



                                    Background
The Tariff Act of 1930 § 751(c); 752(a) (1) requires the Commission to review
antidumping and countervailing duty orders every five years. The Commission
determines whether revocation of an antidumping and/or countervailing duty order would
be likely to lead to continuation or recurrence of material injury within a reasonably
foreseeable time.

At the outset of each five-year review, the Commission issues a notice of institution
requesting that interested parties file responses with the Commission concerning their
willingness to participate in the review; the likely effects of revoking each order under
review; and other information, including industry data. During this “adequacy phase” of
five-year reviews, the Commission assesses the adequacy of aggregate interested party
responses to the notice of institution. If the Commission concludes that interested
parties’ responses to the notice of institution are inadequate and that no other
circumstances exist that would warrant a full review, it may decide to conduct an
expedited, rather than a full review. The Commission generally does not hold a hearing
or conduct further investigative activities in expedited reviews.

During the “adequacy phase” of five-year reviews, the Office of Investigations prepares a
privileged “adequacy memorandum” that summarizes certain background information
and briefly characterizes the nature of the submitted responses to the notice of
institution. Based on the available information, the Director of the Office of
Investigations reviews, approves, and issues the memorandum, which includes
recommendations as to the individual adequacy of responses to the notice of institution
by U.S. producers, U.S. importers, and foreign producers/exporters.

Although the “adequacy memorandum” contains a description of the coverage of
responses to the notice of institution, it offers no recommendations regarding the
Commission’s findings as to group adequacy or whether to conduct an expedited or full
review.




OIG-ER-11-14                                1
                 U.S. International Trade Commission
                                   Evaluation Report


                              Results of Evaluation

The objective of this evaluation was to answer the following question:

       Does the Office of Investigations follow standard procedures when evaluating
       responses to produce the adequacy memorandum to the Commissioners?

No. The Office of Investigations did not have a standard procedure to consistently follow
when the staff drafted adequacy memoranda for the Commission’s review.

Although, the Office of Investigations maintained a checklist, an adequacy memoranda
template, and a three page annotated response chart checklist, these resources did not
fully address all of the steps necessary to produce the adequacy memoranda, and were not
incorporated in a fully developed procedure.

For purposes of this evaluation, “standard” is defined as having a set of criteria for each
review, and being “consistent” is defined as applying the criteria for each review.

The evaluation identified two problem areas: (1) the Office of Investigations did not have
a fully developed and documented procedure, and; (2) the Office of Investigations did not
consistently follow their adequacy memo template.


                   Problem Areas & Recommendations

                                     Problem Area 1:
     The Office of Investigations Did Not Have A Fully Developed and Documented
                                       Procedure


To ensure effective operations, management should have a fully developed and
documented procedure. A fully developed procedure does not merely identify, and
describe what to do, but also clearly and completely explains what staff members must
do, and how to do it. A fully developed procedure also defines key terms and criteria to
ensure that the procedures are consistently applied regardless of who is applying them.

Instead of a well-developed procedure, the Office of Investigations used an adequacy
phase checklist entitled, “checklist for institution (adequacy) phase.” In addition to this
checklist, the Office of Investigations used an adequacy memo template, and a response
chart checklist which assisted staff in preparation of the adequacy memo. The checklist


OIG-ER-11-14                                  2
                   U.S. International Trade Commission
                                        Evaluation Report


did not incorporate key steps, define key terms, criteria, and did not refer staff to
appropriate templates.

    x   The checklist omitted key steps, for example, it:

              o Omitted the step that requires filling out a response chart checklist for
                each interested party;
              o Omitted what to do when an industry table is requested, and one is not
                provided by the industry analyst;
              o Omitted what to do with import data retrieved from DataWeb; and,
              o Omitted where staff could exercise their judgment when drafting portions
                of the adequacy memoranda.

    x   The checklist did not define key terms, such as coverage, deficiency, incomplete,
        and complete responses to the notice of institution. 1

    x   The checklist did not define any criteria to help determine what constitutes an
        incomplete or complete response, and the criteria provided to determine when to
        issue US purchaser surveys is vague.

    x   The checklist did not direct the staff to standard templates developed for use in
        the adequacy phase, such as the notice of institution, and cure letter templates.

Out of a sample of 21 cases, 5 different investigators completed adequacy memoranda in
Fiscal Year 2010-2011. Before 2009, the Office of Investigations relied on one person to
complete the entire adequacy phase without a checklist, but with standard templates for
the adequacy memo, and a response chart checklist. Further, these standard templates
were not part of a fully developed procedure.

While there has been some movement to start documenting the work to be completed and
assigning responsibility of portions of the checklist to other investigators, the Office of
Investigations still heavily relied on a single individual to complete a majority of the
steps, this did not give staff the full experience in completing the steps required, because
they were not completing all of the steps. For example, the staff interviewed explained
that only one staff member completes a majority of the steps, including:

    x gathering the documents to be used for the adequacy phase;
    x drafting and publishing the institution notice;
    x issuing deficiency letters;

1
  The Commission articulates in its procedures that it prefers to assess group adequacy on a case-by-case
basis and not use a numerical guideline. 19 C.F.R. § 207.62 (2010)Federal Register Vol. 63, No. 108
(1998). The Commission does not explicitly define “adequacy” or “individual adequacy.” For purposes of
this report, the terms “incomplete” and “complete” are referring to the adequacy of the responses.

OIG-ER-11-14                                        3
                 U.S. International Trade Commission
                                    Evaluation Report

    x running annual import data;
    x determining whether US purchaser surveys should be issued; and,
    x requesting an industry table from an industry analyst.

By not having a fully documented procedure, the Commission is at risk of receiving
similar looking reports that mean different things based on individual interpretations of
steps and definitions. In addition, because there was no clearly defined threshold for
what constitutes a “complete” response, what was considered “complete” was different
among investigators and led to inconsistencies in how information was presented to the
Commission.

As a result of relying on a single investigator, there was a lack of knowledge and
experience among other investigators in completing all the steps of the adequacy phase.

Recommendation 1: Create a clear and well-documented procedure that effectively
guides investigators through the steps necessary to produce the adequacy memorandum.

Recommendation 2: Clearly define key terms such as incomplete or complete and the
criteria used to determine what constitutes a complete response.

Recommendation 3: Assign different investigators to handle the entire process, from the
notice of institution to the Commission’s adequacy vote.



                                     Problem Area 2:
     The Office of Investigations Did Not Consistently Follow Their Adequacy Memo
                                        Template


To ensure effective operations, management must be able to provide consistent direction.
For processes that are repeated, it is important for the directions to be clear. The Office of
Investigations has a memo template for investigators to follow when drafting
memoranda. Although the template was instructive, it was not clear. As a result, the
memoranda completed by the investigators were not consistently prepared, and did not
completely match the memo template.

The Office of Investigations has a standard adequacy memo template, but memoranda
produced did not always follow the template provided.

   x   Our review of 21adequacy memoranda, completed by five different staff
       members, identified that not all of the adequacy memoranda followed the
       template, for example, there were, the following inconsistencies:


OIG-ER-11-14                                  4
                  U.S. International Trade Commission
                                   Evaluation Report


             o 9 instances which did not include a tabulation of the most recent year’s
               imports; 5 instances were not explained, and 4 were explained;
             o 4 instances in which information from previous reports were not included;
             o 8 instances where headings were added, combined, or changed; and,
             o 2 instances where text required by the criteria were out of order.

Even with the templates available to investigators, the adequacy memoranda were still
inconsistent. The adequacy memoranda were inconsistent because the instructions within
the templates were not clear enough to ensure that the memoranda were prepared in a
consistent fashion. Additionally, the Office of Investigations did not indicate within their
checklist, response chart checklist, or adequacy memo template, where staff could
exercise their judgment when drafting the narrative portions of the adequacy memoranda.

As a result, the Commission was not always given the same information every time an
adequacy memorandum was submitted. Similarly, the Commission was not provided with
an explanation from the Office of Investigations as to why the information was different
before the Commission decided what type of sunset review to conduct.

Recommendation 4: Incorporate in a well-documented process an adequacy memo
template that contains clearer instructions on how to produce the adequacy memoranda.


                Management Comments and Our Analysis

On September 7, 2011, Chairman Deanna Tanner Okun provided management comments
on the draft report. The Chairman acknowledged that until recently the Office of
Investigations relied on a single investigator to complete adequacy phase memoranda.
The Chairman concurred that as the Office addresses this risk, and assigns less
experienced investigators to the adequacy phase, that the Office will need to more fully
develop its procedures and strengthen the adequacy memorandum template.

                     Objective, Scope, and Methodology
Objective:

Does the Office of Investigations follow standard procedures when evaluating responses
to produce the adequacy memorandum to the Commissioners?

Scope:

   x     Adequacy phase of the sunset review process. Analyzing from the initial notice of
         institution to the issuance of the adequacy memorandum.


OIG-ER-11-14                                 5
                U.S. International Trade Commission
                                 Evaluation Report


   x   A sample of 21 different adequacy memoranda completed by five different
       investigators during Fiscal Year 2010-2011 were reviewed.

Methodology:

   x   We obtained and reviewed the “checklist for institution (adequacy) phase” and
       other templates from the Office of Investigations, including:
               o Notice of institution;
               o Cure letter;
               o Response chart checklist; and,
               o Adequacy memo;

   x   We interviewed the Office of Investigations staff members;

   x   We reviewed templates and checklists to see if such key terms and criteria were
       documented;

   x   We extended the scope of the adequacy memoranda to 2011 because a majority of
       the adequacy memoranda completed in 2010 were drafted by the same staff
       member;

   x   We performed a walk-through of the entire adequacy phase;

   x   We analyzed 21 adequacy memoranda drafted by five different Office of
       Investigations staff members;

   x   While analyzing all 21 adequacy memoranda, we recorded and compared what
       was different in the memoranda against what the Office of Investigations
       adequacy template required; and,

   x   We numbered and grouped the memoranda that were inconsistent against the
       Office of Investigations templates.




OIG-ER-11-14                               6
           U.S. International Trade Commission
                                 Appendix


Appendix A: Management Comments on Draft Report




OIG-ER-11-14                         A
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
